           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       THE SOCIAL SECURITY
        ADMINISTRATION’S
       PRISONER INCENTIVE
        PAYMENT PROGRAM

      July 2004   A-01-04-24067




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               SOCIAL SECURITY
MEMORANDUM
Date:   July 30, 2004                                                                    Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Prisoner Incentive Payment Program
        (A-01-04-24067)


        Our objective was to assess the accuracy of incentive payments to prisons for
        submission of inmate data leading to the suspension of Social Security benefits.

        BACKGROUND

        The Social Security Act1 allows the Social Security Administration (SSA) to make
        incentive payments to State and local correctional institutions and certain mental health
        institutions that provide inmate data to SSA. The incentive payment provisions in the
        Act were established to encourage the reporting of inmate data which would allow SSA
        to suspend Supplemental Security Income (SSI) and Old-Age, Survivors and Disability
        Insurance (OASDI) benefits to prisoners in a timely manner.2

        Incentive payments are authorized in the following amounts:
                •    $400 for information received within 30 days after the individual's date of
                     confinement for SSI or confinement due to conviction for OASDI;
                •    $200 for information received after 30 days but within 90 days after the
                     individual's date of confinement for SSI or confinement due to conviction for
                     OASDI; or
                •    $0 for information received on or after the 91st day following the individual's
                     date of confinement for SSI or confinement due to conviction for OASDI. (See
                     Appendix B for additional background information.)


        1
            The Social Security Act, §§ 202(x)(3)(B)(i) and 1611(e)(1)(I)(i).
        2
          The Social Security Act, §§ 202(x)(1)(A)(i) and 1611(e)(1)(A); 42 U.S.C. §§ 402 (x)(1)(A) and
        1382(e)(1)(E) prohibit the payment of benefits to individuals receiving (1) OASDI benefits who have been
        convicted and incarcerated for a period of more than 30 days in a jail, prison or other penal or correctional
        facility, and (2) SSI payments who have been confined in a public institution throughout any month.
Page 2 – The Commissioner


SSA programmed its incentive payment system to issue $400 for inmate information
received by the end of the month following the month of incarceration and $200 for
information received by the end of the third month after the month of confinement. In
addition, the system has a built-in delay of 1 calendar month before the payment is
issued. If during the next month it is determined that benefits should not be suspended
due to incarceration, then the incentive payment will not be released.3 SSA’s policies
and procedures state that if an incentive payment was released, but benefits should not
have been suspended due to incarceration, the payment cannot be recovered.4
If SSA inadvertently pays a facility because of an SSA error (for example, SSA keyed
incorrect incarceration data into the computer system), SSA will not litigate to recoup
the erroneous payment.5 The Agency will ask the correctional institution to return the
payment. If the correctional institution agrees to refund the incentive payment, SSA will
take action to recoup the payment.6 If SSA pays an incentive payment to the wrong
facility, SSA will issue the incentive payment to the correct institution at the earliest
possible opportunity.7

RESULTS OF REVIEW
SSA’s procedures do not ensure that incentive payments to institutions that provide
inmate information are being made in accordance with the provisions in the
Social Security Act. Based on our review of 250 sample cases, we estimate that 86,131
incentive payments were issued incorrectly, resulting in approximately $18.97 million in
OASDI and SSI program funds that should not have been paid. (See Appendix C for
our sampling methodology.)
   Sample Results - Incentive Payments      Specifically, our review of 250 sample cases
                                            found that:
    Incentive
                                               • 171 incentive payments were paid
   Payments
                                  Incentive
                                                   properly;
     Correct 68%

                                                •
                                  Payments
                                  Overpaid          69 incentive payments were overpaid
                                    28%

                     Incentive
                                                    $13,800 because the information was not
                   Payments not                     received within the timeframe established
                     due 4%
                                                    by law, but was received within the
                                                    timeframe implemented by SSA; and
                                                •   10 incentive payments totaling
            $3,600 should not have been paid.

Incentive Payments were Not Made in Accordance with the Social Security Act


3
    SSA, Modernized Systems Operations Manual, Chapter 92, Section 10.
4
    SSA, Program Operations Manual System (POMS), section SI 02310.089 E.
5
    SSA, POMS, section GN 02607.830 B.1.
6
    SSA, POMS, section SI 02310.091 C.
7
    SSA, POMS, section SI 02310.091 B.1.
Page 3 – The Commissioner


The laws that amended the Social Security Act8 to establish incentive payments
included timeframes for the issuance and amount of payments. However, when
implementing the incentive payment process, SSA established payment criteria that are
inconsistent with the laws, as described previously. As a result, $13,800 was overpaid
in our incentive payment sample cases.

The following is an example of an incentive payment overpaid due to SSA not following
the requirements in the Social Security Act:
       •   SSA received a report from an institution on May 21, 1997 showing a date of
           confinement of April 2, 1997 (49 days from confinement to receipt of
           information).
       •   SSA issued an incentive payment on August 1, 1997 for $400, as the prisoner
           information was received before the end of the month following the month of
           confinement.
       •   The institution was overpaid $200, as only $200, not $400, should have been
           paid for information received 49 days after confinement.

The following table shows the breakout of overpayments due to administrative
tolerance:

                                              Number of         Amount of
                      Payment                                                 Percent
                                               Cases           Overpayments
             $400 paid at 31-35 days            25                $5,000        36%
             $400 paid at 36-40 days              18             $3,600         26%
             $400 paid at 41-45 days              13             $2,600         19%
             $400 paid at 46-50 days                8            $1,600         12%
             $400 paid at 51-55 days                4              $800          6%
             $200 paid at 108 days                 1               $200          1%
                       Total                      69            $13,800        100%

Incentive Payments Issued Erroneously

In 10 sample cases, SSA should not have made incentive payments totaling $3,600:

       ¾ In five cases, the person identified by SSA’s computer matching program was
         not the correct person, and SSA personnel did not verify the identity before
         issuing the payment. This resulted in overpayments totaling $1,800.
       ¾ In four cases, the recipient was released from prison before the date benefits
         would have been suspended, and no incentive payment should have been
         made. This resulted in overpayments totaling $1,600.


8
    Pub. L. No. 104-193 § 203 and Pub. L. No. 106-170 § 402.
Page 4 – The Commissioner


   ¾ In one case, the incentive payment was made to the wrong facility and for the
     wrong amount. This resulted in an overpayment of $200.

The following are two examples of incentive payments that should not have been paid:
(1) An incentive payment was paid for the wrong beneficiary:
      •   SSA received a report from an institution on January 7, 2001 showing a date
          of confinement of December 7, 2000.
      •   A name, but no Social Security number (SSN), was provided when reporting
          the inmate’s information to SSA. SSA’s computer system provided an SSN
          for the prisoner report and an alert that the identity was not an exact match.
      •   SSA suspended the reported prisoner’s benefits without determining whether
          it had the correct beneficiary.
      •   SSA later found that this individual was never in the institution that sent the
          inmate information.

(2) An incentive payment was paid although incarceration was too short to suspend
    benefits:
      • SSA received a report from an institution on December 11, 2000 showing a
        date of confinement of November 10, 2000.
      •   SSA suspended the prisoner’s benefits.
      •   The beneficiary was not incarcerated for 1 full calendar month. Therefore,
          benefits should not have been suspended.
      •   The SSA technician did not post a release date to show that the beneficiary
          was released before 1 full calendar month expired.
      •   Posting of a release date would have suppressed the incentive payment.

CONCLUSIONS AND RECOMMENDATIONS

SSA did not adhere to incentive payment provisions included in the Social Security Act
when making payments to facilities that reported inmate information. By making correct
incentive payments in the future, SSA can ensure funds are not inappropriately
expended from either the Social Security Trust Fund or the General Fund. This in turn
could extend the solvency of the Social Security program and make funds available for
other Government programs that utilize the General Fund.
Page 5 – The Commissioner


Therefore, we recommend that SSA:

   1. Pay incentive payments in accordance with the Social Security Act provisions.

   2. Provide refresher training to employees to reduce the number of erroneous
      incentive payments due to clerical errors.

AGENCY COMMENTS
SSA generally agreed with our recommendations. Specifically, SSA agreed that there
is a discrepancy between the incentive payment provisions included in the Social
Security Act and how the Agency is paying incentive payments. SSA is working to
develop a resolution. Also, SSA will provide refresher training to staff to emphasize the
correct processing of prisoner suspensions. (See Appendix D for the Agency’s
comments.)




                                                S
                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope, Methodology and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
 GAO       Government Accountability Office

 OASDI     Old-Age, Survivors and Disability Insurance

 P.L.      Public Law

 POMS      Program Operations Manual System

 SSA       Social Security Administration

 SSI       Supplemental Security Income

 SSN       Social Security Number

 U.S.C.    United States Code
                                                                          Appendix B

Background
Title XVI
Public Law (P.L.) 104-193—enacted on August 22, 1996—amended section 1611(e)(1)
of the Social Security Act to provide for incentive payments from Title XVI program
funds to State and local correctional institutions and certain mental health institutions
which report inmate information to the Social Security Administration (SSA). The law
authorized payment to an institution for information about an inmate if the inmate was
receiving a Title XVI payment for the month that proceeds the first month throughout
which the inmate is in the institution and becomes ineligible for such benefit.

Effective March 1, 1997, P.L. 104-193 authorized SSA to pay the Title XVI incentive
payment in the following amounts:
     •     $400 for information received within 30 days after the individual's date of
           confinement;
     •     $200 for information received after 30 days but within 90 days after the
           individual's date of confinement; or
     •     $0 for information received on or after the 91st day following the individual's
           date of confinement.

Title II
P.L. 106-170—enacted on December 17, 1999—amended section 202(x)(3) of the
Social Security Act to provide for incentive payments from Title II program funds to
State and local correctional institutions and certain mental health institutions which
report inmate information to SSA. The law authorized payment to an institution for
information about an inmate if the inmate was receiving a Title II benefit for the month
that proceeds the first month in which the inmate is in the institution and becomes
ineligible for such benefit.

Effective April 1, 2000, P.L. 106-170 authorized SSA to pay the Title II incentive
payment in the following amounts:
     •     $400 for information received within 30 days after the individual's date of
           confinement and conviction;
     •     $200 for information received after 30 days but within 90 days after the
           individual's date of confinement and conviction; or
     •     $0 for information received on or after the 91st day following the individual's
           date of confinement and conviction.



                                              B-1
Prior Reports on Incentive Payments

In November 1999, the United States Government Accountability Office (GAO) issued a
report, Supplemental Security Income – Incentive Payments Have Reduced Benefit
Overpayments to Prisoners. GAO found that since incentive payment legislation was
passed, SSA made a total of 39,137 Supplemental Security Income (SSI) benefit
suspensions through November 1998 to facilities that had signed incentive payment
agreements. By suspending benefits, SSA identified $32.1 million of potentially
recoverable SSI overpayments that it has already made and prevented approximately
$37.6 million in future erroneous SSI payments. SSA made incentive payments of
almost $10 million to facilities.

In a July 2003 Office of the Inspector General audit,1 we determined that since incentive
payment legislation was passed, SSA significantly increased the number of facilities that
are reporting prisoner data to SSA. Prior to incentive payment legislation, SSA received
prisoner data from 46 of the 50 States and from 156 county and local facilities.
Currently, SSA receives data from all 50 States and over 3,000 county and local
facilities.




1
 SSA, OIG, Follow-up on Prior Office of the Inspector General Prisoner Audits (A-01-02-12018),
July 2003.


                                                 B-2
                                                                       Appendix C

Scope, Methodology and Sample Results
Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies and procedures.
   Reviewed the United States Government Accountability Office report, Supplemental
    Security Income – Incentive Payments Have Reduced Benefit Overpayments to
    Prisoners (GAO/HEHS-00-2), November 1999.
   Reviewed our prior prisoner audit report, Follow-up on Prior Office of the Inspector
    General Prisoner Audits (A-01-02-12018), July 2003.
   Obtained a file of 272,656 incentive payments totaling $99.58 million. From this
    population, we selected a random sample of 250 cases. For each sample item, we
    reviewed the Master Beneficiary Record and/or the Supplemental Security Record
    and SSA’s prisoner system information related to the incentive payment. We
    analyzed this information to determine if the incentive payments were appropriate
    according to the provisions in the Social Security Act. For cases in which we could
    not determine if incentive payments should have been made, we asked SSA to
    determine if the payments were correct.

We conducted our audit between November 2003 and February 2004 in Boston,
Massachusetts. We found the data used for this audit were sufficiently reliable to meet
our audit objective. The entity audited was the Office of Income Security Programs,
Office of Payment Policy under the Deputy Commissioner for Disability and Income
Security Programs. We conducted our audit in accordance with generally accepted
government auditing standards.

Sample Results

We obtained an extract of all incentive payments made between March 1997 and
August 2003. This extract contained 272,656 incentive payments totaling $99,581,600.
We selected a random sample of 250 cases from this population.




                                            C-1
                             Sample Results and Projections
Population size                                                                272,656
Sample size                                                                        250
                                     Attribute Projections
Number of incentive payments paid incorrectly                                       79
Point estimate of incorrect payments in the population                          86,131
   Projection lower limit                                                       72,906
   Projection upper limit                                                      100,252
                                       Dollar Projections
Amount of incentive payments paid incorrectly                                  $17,400
Point estimate of benefits paid in the population                           $18,970,524
   Projection lower limit                                                   $15,895,737
   Projection upper limit                                                   $22,045,311
Note: All projections were calculated at the 90-percent confidence level.




                                                   C-2
                  Appendix D

Agency Comments
                                           SOCIAL SECURITY

MEMORANDUM                                                                         33310-24-1168


Date:      July 9, 2004                                                            Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s Prisoner
           Incentive Payment Program” (A-01-04-24067)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. Questions can be referred to
           Candace Skurnik, Director of the Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S PRISONER INCENTIVE
PAYMENT PROGRAM” (A-01-04-24067)

Thank you for the opportunity to comment on the subject draft report.

Since 1974 the Social Security Administration (SSA) has actively been involved in identifying
inmates of penal institutions and correctional facilities who may be receiving Social Security or
Supplemental Security Income (SSI) benefits.

Currently, SSA has 2,365 signed agreements in place, representing 5,196 facilities that are
eligible for incentive payments. These agreements represent 95 percent of all correctional
facilities, including the Federal Bureau of Prisons, all State prison systems, and most county and
local jails. The reports from these facilities cover 99 percent of the inmate population in the
United States.

The effectiveness of the incentive payment program can clearly be seen through the number of
suspensions in both the SSI and the Old Age Survivor and Disability Insurance (OASDI)
programs. Since its inception in 1997, SSA has made over 253,633 suspensions in the SSI
program, over 50,848 in the Social Security Disability Insurance program, and 11,087
suspensions in the Social Security Retirement Survivors Insurance program.

In April 1998 the Office of the Chief Actuary (OCACT) estimated that prisoner suspensions
were saving the OASDI and SSI programs roughly $500 million annually.

Our response to the specific recommendations is provided below.


Recommendation 1
The Social Security Administration (SSA) should pay incentive payments in accordance with the
Social Security Act provisions.

Comment

We agree that there is a discrepancy between the law and SSA’s implementation that needs
resolution. Section 202(x)(1)(B)(i)(I) and section 1611(e)(1)(I)(i)(I) of the Social Security Act
(the Act) require institutions to report their inmate information to SSA on a monthly basis.
Section 202(X)(1)(B)(i)(II) and section 1611(e)(1)(I)(i)(II) state that SSA will pay the institution
$400 if the institution furnishes the information to SSA within 30 days after the date the
individual is confined in the institution, and $200 if the institution furnishes the information after
30 days, but within 90 days of the date of confinement. In order for an institution to obtain the
maximum incentive payment of $400, the institution would have to report their inmate data to
SSA at least twice a month instead of monthly. Doing so would create a hardship for
correctional institutions. To avoid this potential hardship, and to encourage participation in the
incentive payment program, SSA accepts reports made in the month following the month of


                                                 D-2
confinement as meeting the 30-day requirement. This interpretation has facilitated the recruiting
of correctional institutions into the program.

However, we agree that this issue should be resolved. In developing such a resolution, we will
strive not to strain limited resources or place undue hardship on participating facilities.


Recommendation 2

SSA should provide refresher training to employees to reduce the number of erroneous incentive
payments due to clerical errors.

Comment

We agree. Most erroneous incentive payment errors can be eliminated by performing the
required verifications prior to taking an action. However, there will always be unexpected
releases of confined individuals or inaccurate information from the reporters. Occurrences such
as these could result in occasional erroneous incentive payments being made.

We will provide refresher training to SSA staff to emphasize the correct development and
suspension instructions for processing prisoner suspensions.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments
In addition to those named above:

   Phillip Hanvy, Program Analyst

   Kevin Joyce, IT Specialist

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-01-04-24067.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
